Audit Report

Juvenile Accountability Incentive Block Grants Awarded to the
Oklahoma Office of Juvenile Affairs


Audit Report GR-80-06-002


February 2006
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, completed an audit of Juvenile Accountability Incentive Block (JAIB) grants, numbers 2000-JB-VX-0040, 2001-JB-BX-0040, 2002-JB-BX-0028, and 2003-JB-BX-0014, awarded by the U.S. Department of Justice, Office of Justice Programs, Office of Juvenile Justice and Delinquency Prevention, to the Oklahoma Office of Juvenile Affairs (OJA) in Oklahoma City, Oklahoma. 

The purpose of the JAIB grant program is to provide states and units of local government with funds to develop programs to promote greater accountability in the juvenile justice system.  The OJA is a state agency tasked to provide services and facilities for juveniles in order to promote public safety and reduce juvenile delinquency.  The OJA is responsible for programs and services for juveniles involved in the juvenile justice system.  Within OJA is the Oklahoma Department of Juvenile Justice, which is responsible for providing court intake, probation, and parole for delinquent children; engaging in juvenile justice and delinquency prevention activities; and collecting and disseminating information. 

The OJA was awarded five grants shown in the following table to support its efforts to address juvenile delinquency. 



Juvenile Accountability Incentive Block Grants Awardedto the Oklahoma Office of Juvenile Affairs1





Grant Award Number
Award Date
Award Amount


2000-JB-VX-0040
07/28/00
$3,100,500


2001-JB-BX-0040
08/10/01
$3,225,800


2002-JB-BX-0028
06/20/02
$2,677,300


2003-JB-BX-0014
06/18/03
$2,063,000


2004-JB-FX-0025
06/25/04
$681,484


Total
$11,748,084




Source:  Office of Justice Programs


As part of the audit, we tested OJA's compliance with essential grant conditions — reporting, grant drawdowns, budget management and control, program income, matching program costs, grant expenditures, monitoring of subrecipients, and cash management.  In addition, we tested the accounting records to determine if costs reimbursed under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and the terms and conditions of the grants.  Our audit objectives, scope, and methodology appear in Appendix I of this report.

We found material weaknesses in all areas tested and, therefore, are questioning 100 percent of the net amount of federal funds drawn down for the four on-going grants, or a total of $10,983,210.2  We found that:


the OJA was noncompliant in many fundamental cash management practices.  For example, the OJA did not have a system to account for each award separately and were redesignating block grant awards and related obligations and expenditures from one federal fiscal year to another which is prohibited;

the OJA did not have a defined methodology for allocating expenses, program income, or matching transactions to multiple, on-going grants;

the OJA could not account for grant funds totaling $322,580 that were drawn down in February 2002;

from our testing of grant expenditures, payments totaling $444,185 were unsupported and the inventory records for property purchased with grant funds were inaccurate;

the OJA's monitoring of its subrecipients was inadequate; and

required reports were not submitted in a timely manner and were inaccurate.

In addition, we question $3,898,306 of unidentified funds in an OJA interest-bearing account prior to the deposit of federal funds from the grants under review.  OJA officials speculated that the funds were from prior JAIB grants, but were unable to tell us definitively the source of the funds.  We also question $261,721 in interest allocated to the four grants through May 2005 because OJA officials could not specifically identify the interest income allocation method.   


Footnotes

The OJA had not drawn down any funding for grant 2004-JB-FX-0025 as of the beginning of our audit testing.  Therefore, this grant was not included in our audit. 

	The OJA returned funds to the Office of Justice Programs totaling $83,390 for grant 2000-JB-VX-0040.  Therefore, the net amount drawn down for all grants was $10,983,210.